HHS/OIG, Audit -"Review of Medicaid Drug Rebate Collections-State of New Mexico,"(A-06-03-00012)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Drug Rebate Collections-State of New Mexico," (A-06-03-00012)
April 30, 2003
Complete Text
of Report is available in PDF format (1.34 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the New Mexico Human
Services Department (NMHSD) had established adequate accountability over the
Medicaid drug rebate program.  We found that the NMHSD had not established
adequate controls over the drug rebate program as required by federal rules
and regulations.  Areas that lacked sufficient controls included (1) accounts
receivable system, (2) segregation of duties, (3) interest accrual and collection,
(4) dispute resolution, and (5) Form CMS 64.9R reconciliation.  As
a result, there was (1) no reasonable assurance as to the accuracy of the $5.8
million that NMHSD reported as its outstanding balance as of June 30, 2002,
(2) a potential risk for waste, fraud, or abuse of the drug rebate program
funds, and (3) no assurance that NMHSD was collecting all of the interest payments
for late, unpaid, or disputed rebates. The NMHSD generally agreed with our
findings and recommendations, except for segregation of duties for the receipt
of cash.